Alliant Credit Union
Visa Disclosure

Visa® Platinum and Visa® Platinum Rewards

Interest Rates and Interest Charges

0% to 5.99%
Annual Percentage Rate (APR)
for Purchases

introductory APR for 12 months from the date of account
opening based on your creditworthiness. After that, or if you do not qualify for
the introductory rate, your APR will be

10.24% to 22.24% for Platinum

13.24% to 23.24% for Platinum Rewards based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.

0% to 5.99%

introductory APR for 12 months from the date of account
opening based on your creditworthiness. After that, or if you do not qualify for
APR for Balance Transfers

the introductory rate, your APR will be

10.24% to 22.24% for Platinum

13.24% to 23.24% for Platinum Rewards based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.
APR for Cash Advances

19.24%-24.24% for Platinum, 18.24%-24.24% for Platinum Rewards based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.

Penalty APR and
When it Applies

25.24% This APR will vary with the market based on the Prime Rate. This APR may be
applied to your account if you make a late payment; make a payment that is returned;
or do any of the above on another account that you have with us.
How Long Will the Penalty APR Apply? If your APR(s) is increased for the reason
stated above, the Penalty APR will apply until you make six consecutive minimum
payments when due.

How to Avoid Paying Interest
on Purchases

To avoid an additional interest charge on the balance of purchases and balance
transfers, you must pay the entire balance on the billing statement by the Payment
Due Date of that statement or 25 days from the statement closing date listed on
that statement, whichever is longer. You will be charged interest on cash advances
beginning on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Fees
Annual Fee
Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction
Penalty Fees
• Late Payment
• Return Payment
• Over Limit

None.
•E
 ither $5 or 2% of the amount of each transfer, whichever is greater.
• Either $10 or 3% of the amount of each cash advance, whichever is greater.
•2
 % of each transaction where the merchant country differs from the country of the
card issuer.
• Up to $27.
• Up to $27.
• None.

The information about the costs of the card described in this disclosure is accurate as of May 1, 2020. This information may
have changed after that date. To find out what may have changed, call us at 800-328-1935 or write to us at Alliant Credit Union,
11545 W. Touhy Avenue, Chicago, IL 60666.
How Alliant Calculates Your Balance: We use a method called Average Daily Balance, which includes new purchases, cash
advances, and balance transfers. See the Finance Charges section in the Visa Credit Card Agreement for details.)
Loss of Introductory APR: We may end your introductory APR and apply the Penalty APR if you make a late payment.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in the Billing
Rights section of the the Visa Credit Card Agreement.
Your Annual Percentage Rate (APR) may vary quarterly and is based on the Prime Rate. Your APR is determined by adding a
margin of: 6.99%-18.99% on purchases and balance transfers, 15.99%-20.99% on cash advances, 21.99% on Penalty APR to
the Prime Rate for the Platinum Card. 9.99%-19.99% on purchases and balance transfers, 14.99%-20.99% on cash advances,
21.99% on Penalty APR to the prime rate for the Platinum Rewards Card. The Prime Rate Index used to determine your APR
is the highest rate published in The Wall Street Journal during the last business day of the previous calendar quarter (March,
June, September and December), and changes are effective as of the first day of your next billing cycle. Any increase in the
prime rate may increase your Interest and Minimum Payment. (See the Visa Credit Card Agreement for complete details.)
Introductory rate and incentive offers, including bonus points, are not available to those members who had an
outstanding balance on a closed Alliant Visa Credit Card account and/or had an Alliant Visa Credit Card within the
last six months. If you are in an introductory rate promotion, you are not eligible to transfer Visa accounts until the
introductory rate promotion has expired.
TERMS AND CONDITIONS
The introductory Annual Percentage Rate (APR) will apply to purchases and balance transfers made during a promotional
period of 12 months from the opening of your Visa account. After this promotional period ends, your standard variable APR
will apply to any remaining balance and to all new purchases and balance transfers. The terms of this introductory rate may
not be applied to existing Alliant Credit Union Visa accounts.

P322.1-R05/20

This promotional introductory offer is based on meeting Alliant Credit Union’s criteria for creditworthiness. Alliant Credit Union
will review your credit and employment history and any other information permitted by law to process your application. The
credit line on this account will be determined after a review of your application by Alliant Credit Union and will be based
on various factors, including income. The minimum approved credit line is $1,000 for the Alliant Visa Platinum card and
$2,500 for the Alliant Visa Platinum Rewards card. Alliant Credit Union maintains the right to not open this account if: a) the
information provided is incomplete, inaccurate or cannot be verified, or if you do not meet Alliant Credit Union’s standards
for creditworthiness; b) your name and/or mailing address on the credit application have been altered; c) the income you
reported on the application is insufficient to support the opening of this account; or d) you do not meet Alliant membership
eligibility requirements. You have the right to review your credit history by contacting the credit reporting agencies.
Change in APRs, Fees and Other Terms: Alliant may change the APRs, fees and other terms of your account at any time in
accordance with applicable law and the Visa Credit Card Agreement, which we will send you when your account is opened.
Factors we may consider in determining whether and how to change your terms include, but are not limited to, a late payment
or an extension of credit that exceeds the credit limit, the frequency and severity of defaults and other indications of risk on
accounts with Alliant Credit Union and other creditors. To the extent allowed by law, the new terms will affect all outstanding
balances. If we increase your APRs for any reason other than an increase in the Prime Rate, the new APRs will apply only to
new transactions you make after we notify you of the change in writing.
Minimum Payments: The minimum monthly payment is 3% of your balance, or $25, whichever is greater, plus the amount
of any prior minimum payments that you have not made. See the Visa Credit Card Agreement for complete details. Alliant will
also add any past due amount to your minimum payment. If your Account charges off, the entire balance is due immediately.
Transferability: This offer is nontransferable and is void to residents of GU, PR, VI and all other U.S. dependent areas.
Military Lending Act (MLA). Important Information for Covered Borrowers under the Military Lending Act, Effective October
3, 2017 – Federal law provides important protections to members of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her
dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit
transaction or account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection
with the credit transaction; any application fee charged (other than certain application fees for specified credit transactions
or accounts); and any participation fee charged (other than certain participation fees for a credit card account). To hear this
Military Lending Act disclosure and the payment obligations thereunder, call toll free at 1-844-228-3303.
California Residents: Applicants: 1) may, after credit approval, use the Credit Card account up to its credit limit; 2) may be
liable for amounts extended under the plan to any joint applicant. As required by law, you are hereby notified that a negative
credit report reflecting on your credit record may be submitted to a credit reporting agency if you fail to fulfill the terms of your
credit obligations. Married applicants may apply for credit separately.
New York and Vermont Residents: Alliant Credit Union may obtain your credit reports, for any legitimate purpose associated
with the account or the application or request for an account, including but not limited to reviewing, modifying, renewing
and collecting on your account. On your request, you will be informed if such a report was ordered. If so, you will be given
the name and address of the consumer reporting agency furnishing the report. New York residents may contact the New York
State Department of Financial Services by telephone or visit its website for free information on comparative credit card rates,
fees and grace periods. New York State Department of Financial Services: 1-877-226-5697 or http://www.dfs.ny.gov.
Ohio Residents: Ohio anti-discrimination laws require creditors to make credit equally available to all creditworthy members
and that credit reporting agencies maintain separate credit histories on individuals upon request. The Ohio Civil Rights
Commission administers these laws.
Massachusetts Residents: You have the right to prohibit the use of information about you contained in your file
with any consumer reporting agency in connection with any credit transactions that you have not initiated. You can exercise
this right by contacting consumer reporting agencies through their toll-free notification systems established for this purpose.
Married Wisconsin Residents: Wisconsin law provides that no agreement, court order or individual statement applying to
marital property will adversely affect a creditor’s interest unless prior to the time credit is granted, the creditor is furnished with
a copy of the agreement, statement or court order, or has actual knowledge of the provision.
Alliant Platinum Rewards Program (Program): Eligible Alliant Visa® Platinum Rewards accounts earn two Alliant Reward
Points for every one dollar in qualifying personal, family, or household purpose purchases, minus returns, the cardholder
charges to his/her eligible Alliant Visa Platinum Rewards credit card account as provided for in the Program rules. No
points are earned for Finance Charges, fees, cash advances (including purchase of crypto currency and foreign currency),
convenience checks, Debt Protection charges, PIN-based purchases, payment of existing card balances, balance transfers,
ATM transactions, Interlink-processed transactions, purchases of and any fees paid towards gift cards, pre-paid cards, reloadable cards, or payments made for payment instruments that can readily be converted to cash (for example, travelers
checks, money orders, wire transfers, and similar products or services), or impermissible purchases, such as purchases made
for business purposes. Points in this Program may not be used with any other offer, promotion or discount; cannot be earned
from, transferred to or combined with any other member’s credit card or debit card account(s) points for redemption; and
cannot be used to satisfy any monthly minimum payment obligation on the cardholder’s account.
Forfeiture of Platinum Reward Points. If for any reason your Account is closed, including but not limited to moving to
another Alliant Credit Card, you will lose your unredeemed Alliant Reward Points immediately. We reserve the right to
disqualify any accountholder from participation in this Rewards program in the event of fraud, abuse of program privileges, or
violation of the Terms and Conditions as determined by the sole judgment of Alliant Credit Union. Such termination may result
in the forfeiture of any accumulated Reward Points.
Accrual and Expiration of Platinum Reward Points: Points will accrue over five calendar years and will expire on a rolling,
first-in–first-out, annual basis; Points that are earned in a calendar year will expire in December of the fourth calendar year
following the year in which they were earned. For example, any unredeemed Points that you earned in 2017 will expire
on your December 2021 statement closing date; unredeemed Points earned in 2018 will expire on your December 2022
statement closing date, etc.
Please refer to the Alliant Visa® Platinum Rewards Program Terms & Conditions for complete details.

Visa is a registered trademark of Visa International Service Association.

P322.1-R05/20

